OIG Audit Report GR-30-00-001
Office of Community Oriented Policing Services Grants to the City of McMechen, West Virginia Police Department
Audit Report GR-30-00-001
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of McMechen, West Virginia Police Department (the Police Department).  The Police Department received a grant of  $52,592 to hire 1 officer under the Funding Accelerated for Smaller Towns (FAST) program.  The purpose of the additional officer is to enhance community policing efforts.

	Our audit determined that:

The City used $4,669 to defray unallowable costs that included overtime, personal time, holiday pay for days that are not recognized Federal holidays, and for the performance of non-law enforcement duties.

	The City made no provision for grant matching funds.

	The City did not retain the grant funded officer position after the grant period ended resulting in questioned costs of $52,591.

	Neither the Department Annual Report nor the Officer Progress Report for the year ended December 31, 1997 was submitted to COPS.
 
These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.  Our SCOPE AND METHODOLOGY appear in Appendix II.